Index of New Appendices
1.

berried E v ictc.frtc

OC+.

Notice of Credit Decision from Popular Bank of Puerto Rico;
July 30, 2020
(Banco Popular de Puerto Rico): Original and Translation
B. Customer Copy of Credit Application: July 28, 2020
FICO Credit Report and Score:
includes FICO 8 and 9 credit scores

July 27, 2020

Money Express/First Bank Pre-qualified Loan Offer:
Original and Translation, valid until October 31, 2020
Consumer Financial protection Bureau Complaint:
July 28, 2020
with Banco Popular de Puerto Rico Response:
August 12, 2020
Wallet Hub October 6, 2020 Credit Report
specifically showing Loan and Credit Card Reports
Discover Letter denying Loan Application
with no credit score penalty:
September 22, 2020
Santander Bank of Puerto Rico Website Loan Info:
October 6, 2020

POPULAR

Notice of Credit Decision

Branch / Unit LEVITTOWN - 170

Date: 07/30/2020
Co-Applicant

Co-Debtor

of the credit issued by:

PABLO E ROSADO-SANCHEZ (768)
URB. LEVITTOWN

Non certified translation made by Petitioner

App. A

1093 PASEO DAMASCO
TOA BAJA PR 00949

Credit Requested: PERSONAL LOAN
Dear Applicant:
Your credit application for the above product has not been viewed favorably. Our credit decision was based in whole or in part on information
obtained from:
X Our files or information provided by you.
X A report obtained from the credit reporting agency of consumer listed below. Under the federal Fair Credit Reporting Act, you have the right to
know the information contained in your credit file at the referred agency. There will be no charge for this service if you contact the agency within
60 days of this notice. After this term, there will be a minimum charge for that service. This agency did not intervene in our decision and cannot
provide you with the specific reasons why the credit was denied. You also have the right to dispute the correctness or accuracy of the information
contained in the credit report provided by the agency and credit information.
X TRANS UNION

_EQUIFAX INFO SERVICES LLC

PO BOX 1000

PO BOX 740251

CHESTER, P.A. 19016

Atlanta, GA 30374-0251

WWW.TRANSUNION: COM / MYOPTIONS
Toll Free 1 (800) 888-4213
WWW.EQUIFAX.COM/CREDITREPORTASSISTANCE
Toll Free Telephone PR 1 (888) 611 - 9573
USA 1 (800) 685 1111
An outside source that is not a news agency consumer credit.
Under the federal law "Fair Credit Reporting Act ", you have the right to request in writing a disclosure of the origin
of this information within 60 days from the receipt of this notice.
Under the federal Equal Credit Opportunity Act, you have the right to require that the specific reasons for this credit decision be disclosed to you.
This must be done no later than 60 days as of the date of this notice. Once the bank receives the applicant's written request, it will also inform the
applicant in writing of the specific reasons on which this decision was based. This will be done within 30 days of receipt of the request. You can
contact us at the following address or telephone:
BANCO POPULAR DE PUERTO RICO
Region / Department: LEVITTOWN-170
PO BOX 362708
SAN JUAN; PUERTO RICO 00936-2708
Phone: (787) 795-6610
# Request 2022101046470

NOTICE

Federal law prohibits creditors from discriminating against credit applicants based on race, color, religion, national origin, sex, marital status, or age
(as long as the applicant has the legal capacity to be contractually bound) Nor can discriminate because everything the applicant's income comes
from a public assistance program. This law also prohibits discrimination on the grounds that the applicant has exercised in good faith any right
under the federal Consumer Credit Protection Act.
The federal agency that administers or regulates compliance with the aforementioned laws regarding Banco Popular de Puerto Rico is the Bureau
Consumer Financial protection, 1700 G Street NW, Washington, DC 20006
GEN420 062020

Aviso de Decisi6n de Cr6dito

POPULAR.

Fecha: 30/07/2020

Sucursal / Unidad LEVITTOWN-170

Cosolicitante
del credit° solicitado por:

Codeudor

9

PABLO E ROSADO-SANCHEZ
URB LEVITTOWN
1093 PASEO DAMASCO
TOA BAJA PR 00949

(768)

Credit° Solicitado: PRESTAMO PERSONAL
Estimado Solicitante:
Su solicitud der.credito pare ,e! producto-arribs mencionado no ha sido considerada favorablemente. ,Nuestra decision de credit° se base
total o parcialmente en la informaci6n obtenida de:
X Nuestros archivos o informed& suministrada por usted.
X Un informe obtenido de la agenda de informed& de credit() al consumidor que se indica mas abajo. Bajo la ley federal Fair Credit
Reporting Act, usted tiene derecho de conocer la informaci6n contenida en su archive de credit° en la referida agencia. No habre cargo
por este servicio si usted se comunica con la agenda dentro de 60 dias a partir de la fecha de este aviso. Despues de este termino,
habra un cargo minima por ese servicio. Dicha agencia no intervino en nuestra decision y no puede suministrarle las razones
especificas de porque se le denego el credit°. Usted tambien tiene el derecho de disputar la exactitud o certeza de la informed&
contenida en el informe de credit° suministrado por la agencia de informed& de credit°.
X TRANS UNION
PO BOX 1000
CHESTER, P.A. 19016
WWW.TRANSUNION.COM/MYOPTIONS
Telefono Libre de Cargos 1 (800) 888-4213

EQUIFAX INFO SERVICES,LLC
PO BOX 740251
ATLANTA, GA 30374-0251
WVVW.EQUIFAX.COM/CREDITREPORTASSISTANCE
Telefono Libre de Cargos PR 1 (888) 611-9573
USA 1 (800) 685-1111

Una fuente externa que no es una agenda de informaci6n de credit° al consumidor. Bajo la ley federal "Fair Credit Reporting Act",
usted tiene derecho a solicitar por escrito una divulged& del origen de esta informed& dentro de 60 dies a partir del recibo de este
aviso.
Bajo la ley federal "Equal Credit Opportunity Act" usted tiene el derecho de requerir que se le divulguen las razones especificas para esta
decision de credit°. Este debe hacerse no mas tarde de 60 dias a partir de la fecha de este aviso. Una vez el Banco reciba la petici6n
escrita del solicitante, informara a este tambien por escrito las razones especificas sabre las cuales se base esta decision. Esto se hare
dentro de 30 dias del recibo de la peticiOn. Puede comunicarse con nosotros a la siguiente direction o telefono:
BANCO POPULAR DE PUERTO RICO
Regien/Departamento: LEVITTOWN-170
PO BOX 362708
SAN JUAN, PUERTO RICO 00936-2708
Telefono (787) 795-6610
#Sal. 20202101046470

AVISO
La ley federal Equal Credit Opportunity Act prohibe que los acreedores discriminen contra los solicitantes de credit° por raza, color, religion,
origen nacional, sexo, estado civil o edad (siempre y cuando el solicitante tenga la capacidad legal pare obligarse contractualmente).
Tampoco se podra discriminar porque todo el ingreso del solicitante parte de el provenga de un programa de asistencia publica. Esta ley
prohibe tambien el discrimen por razon de que el solicitante haya ejercido de buena fe algen derecho bajo la ley federal Consumer Credit
Protection Act.
La agenda federal que administra o regular el cumplimiento de las leyes antes mencionadas respecto al Banco Popular de Puerto Rico es
el Bureau of Counsumer Financial Protection, 1700 G Street NW., Washington, DC 20006.

GEN420 06/2020

BANCO POPULAR®

Divulgaciones Relacionadas a los Productos
de Seguros y Referidos a Popular Insurance
Disclosures Related to Insurance Products and
Referrals to Popular Insurance

Aep.

20202101046470
NOm. de Solicitud / Application No.

PABLO E ROSADO-SANCHEZ
Nombre / Name

07/28/2020
Fecha / Date

El Banco o InstituciOn Financiera no condicionara la decisi6n de credit° relacionada a esta solicitud a:
The Bank or Financial Institution will not condition the credit decision regarding this application on either:
(1) su compra de cualquier producto de seguro de Popular Insurance o cualquier afiliada; o
your purchase of an insurance product from Popular Insurance or any affiliate; or
que usted acuerde no obtener o le prohiba Ia compra de un producto de seguro de una entidad no afiliada.
(2) your agreement not to obtain or prohibit you from purchasing an insurance product from an unaffiliated entity.
El Banco o InstituciOn Financiera no rechazara un seguro presentado por usted relacionado con su transacciOn de credit°
The Bank or Financial Institution will not reject the insurance you presented related to your credit transaction if
siempre y cuando dicho seguro cumpla con los requisitos o estandares relacionados a las cubiertas,
your insurance complies with our requirements or standards related to coverages,
solidez financiera y los servicios provistos por el asegurador.
financial strength and services provided by the insurer.
Los productos de seguros no son un depOsito u otra obligaciOn de,
The insurance products are not a deposit or other obligation of,
o garantizados por, el Banco o una afiliada del Banco; no son asegurados por el Federal Deposit Insurance Corporation (FDIC) o
or guaranteed by, the Bank or an affiliate of the Bank; are not insured by the Federal Deposit Insurance Corporation (FDIC) or
cualquier otra agencia de los Estados Unidos, el Banco o afiliada del Banco y pueden perder valor.
any other agency of the United States, the Bank or an affiliate of the Bank and may go down in value.
Favor de completar y enviar esta divulgacion a la siguiente direcci6n:
Please complete and return this disclosure to the following address:
Banco Popular
Operaciones de Credito a individuos (925)
PO Box 362708
San Juan PR 00936-2708
Para su conveniencia, tambien puede entregar la misma en Ia sucursal del Banco Popular mas cercana o enviarla por
For your convenience, you can also return the disclosure to your nearest Banco Popular branch or send it via
fax al 787-282-9120.
fax to 787-282-9120.
Certifico haber recibido y leido las Divulgaciones presentadas en este documento.
I hereby certify that I have received and read the Disclosures presented in this document.

Firma / Signature

GEN-693 / 8-12 (CCOP)

SUCURSAL - CLIENTE / BRANCH - CUSTOMER

in money express,
We want to solve you!

HERE IS YOUR SOLUTION!
$ 5,000 pre-qualified amount

Name: PABLO E ROSADO SANCHEZ
Offer Code: PB0920122875

Non-certified translation by Petitioner
with Google Translator aid

Have the money you need!
Dear Pablo:
We know that at the moment you are thinking of some arrangements that you would like to
make at home. Whether it is to give the house a little paint or change that essence that is
already giving you problems, the solution is a personal loan.
Here we include your prequalified check with the offer code for a personal loan of up to $ 5,000.
Just call us at 787.282.2880 before October 31, 2020 and remember to mention the offer code
PB0920122875.
Cordially,
Juan Carlos Vazquez-Padua
First Vice President
Director of Consumer Credit

AMOUNT
$ 1,001
AMOUNT
$ 3,500

MONTHLY PAYMENT
$ 48
MONTHLY PAYMENT
$ 80
money express
We want to solve you!
Apply now!
787.282.2880
www. moneyexpresspr.com
monday to friday 8:00 am to 6:00 pm
saturday 9:00 am to 1:00 pm
1. You receive this offer because you met some pre-established criteria for this type of offer and product. If
at the time of submitting the offer you do not meet such pre-established criteria for this offer and product,
among which is your income and expenses ratio, your request could be rejected. The offer is not
transferable to other people. The prequalified amount will require the cancellation of your loan with
Money express if you have an active loan. Offer is valid until October 31, 2020 and will be subject to photo
ID, evidence, and verification of acceptable income, among others. One offer per family nucleus. 2.
Monthly payment example for Money Ex'ress loans of $ 3,500 for 60 months and $ 1,001 for 24 months at
12.95% APR. This interest rate applies to clients who qualify for excellent credit, according to the
parameters, criteria, and other factors established by Money Express. Example of monthly payment at
29.95% APR from $ 3,500 to 60 months $ 113.00 and $ 1,001 to 24 months $ 56.00. Payments rounded to
the nearest dollar. Other interest rates, terms and conditions may apply if you do not qualify. Money
Express is a member of FINANCO. OCIF Lic. PPP-13 Loans from $ 150 to $ 5,000. Prestamas is a
member of FINANCO. OCF Lic. IF-2005-368-01. Personal Loans from $ 5,001 to $ 15,000. Certain
restrictions apply, subject to credit approval. First Federal Finance, LLC (DBA Money Express and DBA
PrestaMas) is a subsidiary of First Bank Puerto Rico.

